No. ________

IN THE SUPREME COURT OF THE UNITED STATES
ROBERT BUTTERY, Petitioner
v.
STATE OF OHIO, Respondent
On Petition for a Writ of Certiorari to the
Supreme Court of Ohio
CERTIFICATE OF SERVICE

I, Julie Kahrs Nessler, a member of the Bar of this Court, hereby certify that on this
17th day of December, 2020, a copy of the foregoing PETITION FOR WRIT OF
CERTIORARI, MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS were
served, pursuant to Rule 29.3, on Paula E. Adams, Assistant Hamilton County
Prosecutor, Counsel for the State of Ohio, by both personally at 230 E. 9th St., Suite
4000, Cincinnati, OH 45202 (Phone: 513-946- 3228) and electronic mail at
paula.adams@hcpros.org. I further certify that all parties required to be served have
been served. I declare under penalty of perjury that the foregoing is true and correct.

Executed on:
December 17, 2020

/s/ Julie Kahrs Nessler_________
JULIE KAHRS NESSLER (0085189)
Assistant Public Defender
Counsel for Petitioner Robert Buttery

